OIG Investigative Reports, Escaped Murderer Pleads Guilty to Bank Fraud and Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
May 14, 2007
U.S. Department of Justice
United States Attorney
Southern District of New York
For Information Contact:
YUSILL SCRIBNER,
REBEKAH CARMICHAEL
PUBLIC INFORMATION OFFICE
(212) 637-2600
ESCAPED MURDERER PLEADS GUILTY TO BANK FRAUD AND IDENTITY THEFT
MICHAEL J. GARCIA, the United States Attorney for the Southern District of New York, and JOHN P. HIGGINS, Jr., the Inspector General of the United States Department of Education, announced that IVAN ORTA CUPRILL pleaded guilty earlier today to stealing the identity of another person and applying for student loans using that person's name and social security number. Significantly, at the time of those crimes, which took place from 1999 to 2002, CUPRILL was a wanted fugitive, having escaped from jail in Puerto Rico where he was serving a maximum 27-year sentence after having been convicted of murder and other crimes.
According to the Complaint and Indictment previously filed in Manhattan federal court and other statements on the record in this case, as well as court documents from Puerto Rico and CUPRILL's statements at today's plea proceeding before United States District Judge Deborah A. Batts:
Beginning in 1999, CUPRILL submitted applications for financial aid to attend
the State University of New York at Old Westbury. In the applications, CUPRILL
identified himself as "Jaime Torres" and used the Social Security number
belonging to a person with that name. The loans were approved and funds were paid
by Citibank USA to the college on CUPRILL's behalf. CUPRILL never repaid the loans.
At the time of his July 2006 arrest on these charges CUPRILL's true identity was not known. However, agents from the Department of Education in New York and Puerto Rico continued to investigate. They eventually identified the defendant as CUPRILL and learned that since 1994 CUPRILL had been wanted for escape from prison while serving a 27-year sentence for murder and other crimes.
CUPRILL pleaded guilty to both counts with which he was charged: bank fraud and identity theft. As a result of his plea, CUPRILL faces a maximum sentence of thirty years' imprisonment. He is scheduled to be sentenced before Judge Batts on September 10, 2007 at 11:00 a.m.
Mr. GARCIA praised the efforts of the Department of Education.
Assistant United States Attorney JEFFREY A. BROWN is in charge of the prosecution.
Printable view
Share this page
Last Modified: 05/15/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov